                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: A06080038
                                                                                     11           Page 1 of 1
                                                                                                                      11
                 A plagiarism proactive review identified possible plagiarism and misattribution of text within
         a proposal.1The subject2was contacted and responded to the allegations. Evidence indicated that the
         subject did not intend to copy the limited amount of non-attributed or misattributed text. Evidence
         also indicated that some of the text identified as misattributed was in fact correctly attributed. Lastly,
         evidence did not substantiate a pattern of research misconduct as the subject had no other proposals
         submitted to NSF.

                    Accordingly, this case is closed.




r                                                              l                                                      l
NSF OIG Form 2 (1 1/02)
